Case 17-1697, Document 240-1,12/18/2020, 2996394, Page! of 3

17-I697(L)
Pilchman v. National Labor Relations Board

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
»

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1,2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.14.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
18th day of December, two thousand twenty..
Present:
#

DENNIS JACOBS,
ROSEMARY S. POOLER,
JOSEPH F. BIANCO,
Circuit Judges.

ROBERT PILCHMAN,
Plaiutiff-Appellant,
v.

17-1697(L)
20-52(con)
20-66(con)

NATIONAL LABOR RELATIONS BOARD, NEW YORK
STATE PUBLIC EMPLOYMENT RELATIONS BOARD,
NEW YORK STATE DIVISON OF HUMAN RIGHTS,
BROOKLYN PUBLIC LIBRARY, BROOKLYN LIBRARY
GUILD LOCAL 1482 OF THE AMERICAN FEDERATION
OF STATE, COUNTY AND MUNICIPAL EMPLOYEES,
AFL-CIO, DISTRICT COUNCIL 37 OF THE AMERICAN
FEDERATION OF STATE, COUNTY AND MUNICIPAL
EMPLOYEES, AFL-CIO,
Defbndants-Appellees.
Appearing for Appellant:

Robert Pilchman, pro se, Brooklyn, N.Y.
l

#

Case 17-1697, Document 240-1,12/18/2020, 2996394, Page2 of 3

Appearing for Appellee
National Labor Relations Board:

Kevin P. Flanagan, Dalford Dean Owens, Jr., Peter B.
Robb, Alice B. Stock, Nancy E. Kessler Platt, William G.
Mascioli, National Labor Relations Board, Washington,
D.C.

Appearing for Appellee New York
State Public Employment Relations
Board and New York State Division
Barbara D. Underwood, Solicitor General, Judith N. Vale,
of Human Rights:
Senior Assistant Solicitor General, Amit R. Vora, Assistant
Solicitor General, y&rLetitia James, Attorney General State
of New York, New York, N.Y.
Appearing for Appellee
Brooklyn Public Library:

Clifford R. Atlas, Daniel D. Schudroff, Katherine Kettle Di
Prisco, Jackson Lewis P.C., New York, N.Y.

Appearing for Appellee
Brooklyn Library Guild Local 1482
of the American Federation of
State, County and Municipal
Employees, AFL-CIO and
District Council of State, County
and Municipal Employees,
Robin Roach, Steven Edward Sykes, District Council 37,
AFL-CIO:
AFSCME, AFL-CIO, New York, N.Y.
Appeal from the United States District Court for the Eastern District of New York
(Townes, /., Kuntz, /.).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgments of said District Court be and it hereby is AFFIRMED.
Robert Pilchman appeals from the dismissal of his complaints against the National Labor
Relations Board ("NLRB”), the New York State Public Employment Relations Board ("PERB”),
the New York State Division of Human Rights, his former employer the Brooklyn Public Library
(“Library”), and his union. In his first action, Pilchman alleged that the general counsel of the
NLRB improperly declined to issue an unfair labor practice complaint, and the PERB improperly
denied his application for injunctive relief against the Library. Pilchman v. National Labor
Relations Board, 14-cv-7083 (E.D.N.Y.) (“Pilchman P). In the second, he reiterated his claims
and further alleged that the defendants had not complied with his Freedom of Information Act
and New York’s Freedom of Information Law requests. Pilchman v. National Labor Relations
Board, 15-cv-3176 (E.D.N.Y.) (“Pilchman IP), In the third, he sued only the Library and alleged
2

Case 17-1697, Document 240-1, 12/18/2020, 2996394, Page3of3

that the library had violated his First Amendment rights. Pilchwan v. Brooklyn Public Library,
E.D.N.Y. 15-cv-3641 {“Pilchman IIP). The district court dismissed the first action, reasoning
that it lacked jurisdiction to review a decision of the NLRB general counsel not to issue an unfair
labor practice complaint and declining to exercise supplementary jurisdiction over his remaining
state law claims. The court dismissed the second and third actions for failure to state a claim.
We assume the parties’ familiarity with the underlying facts, procedural history, and
specification of issues for review.
The issue underlying the district court’s dismissals of Pilchman /and U\s whether the
district court had jurisdiction to review a decision of the NLRB general counsel not to issue an
unfair labor practice complaint. The district court did not have such jurisdiction.
The district court had jurisdiction “only if authorized by statute.” Bell v. NewJersey, 461
U.S. 773, 111 (1983). Typically, federal court review of agency decisions is governed by the
Administrative Procedure Act, unless some other statute “preclude[s] judicial review.” 5 U.S.C.
§ 701(a)(1). The Supreme Court has held that the National Labor Relations Act is such a statute.
SeeNMRB. v. United Food and Commercial Workers Union, Local 23, AFL-CIO, 484 U.S.
112,130-33 (1987). The NLRA provides that “[a]ny person aggrieved by a final order of the
Board ... may obtain a review of such order in any United States court ofappeals in the circuit
wherein the unfair labor practice in question was alleged to have been engaged in ... by filing in
such a court a written petition praying that the order of the Board be modified or set aside.” 29
U.S.C. § 160(f) (emphasis added).
Thus, the NLRA does not provide for district court jurisdiction to review NLRB
decisions. This Court lacks jurisdiction over the general counsel’s decision because it is not a
final order within the meaning of 29 U.S.C. § 160(f); see UnitedFoodand Commercial Workers
Union Local23,484 U.S. at 129. While we have recognized a potential exception when there is
an assertion of a violation of constitutional rights which is “not transparently frivolous.” Fay v
Douds, 172 F.2d 720,723 (2d Cir. 1949), Pilchman does not allege any constitutional violations
by the NLRB. Accordingly, the district court lacked jurisdiction to review the NLRB general
counsel’s decision and was required to dismiss Pilchman’s claim against the NLRB. Because
Pilchman’s claim against the NLRB was the only federal claim in his first action, the district
court properly declined to exercise supplemental jurisdiction over his claims against the
remaining defendants. SeeKolari v. New York-Presbyterian Hosp., 455 F.3d 118,122 (2d Cir.
2006).
We have considered the remainder of Pilchman’s arguments and find them to be without
merit. Accordingly, the order of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

3

Case 17-1697, Document 252, 03/05/2021, 3049694, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
5th day of March, two thousand twenty-one.

Robert Pilchman,
Plaintiff - Appellant,
v.

ORDER
Docket Nos: 17-1697 (Lead)
National Labor Relations Board, New York State Public
20-52 (Con)
Employment Relations Board, New York State Divison of
20-66 (Con)
Human Rights, Brooklyn Public Library, Brooklyn
Library Guild Local 1482 of the American Federation of
State, County and Municipal Employees, AFL-CIO,
District Council 37 of the American Federation of State,
County and Municipal Employees, AFL-CIO,
Defendants - Appellees.

Appellant, Robert Pilchman, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 1

#: 1101

u.8.K^o».n.v.

★ MAY 03 2017 *

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

X

BROOKLYN OFFICE

ROBERT PILCHMAN,
Plaintiff,

MEMORANDUM AND ORDER

- against -

14-cv-7083 (SLT) (SMG)

NATIONAL LABOR RELATIONS BOARD,
et.al.,
Defendant.

X
TOWNES, United States District Judge,
In this/vo se action, Plaintiff Robert Pilchman (“Pilchman”) sues the National Labor
Relations Board (“NLRB”), the New York State Public Employment Relations Board (“PERB”),
the Brooklyn Public Library (“BPL”) (his employer), and entities related to his union, including
District Council 37 of the American Federation of State, County and Municipal Employees (an
AFL-CIO entity) and its affiliated local, Brooklyn Library Guild Local 1482 of the American
Federation of State, County and Municipal Employees (the union entities will be collectively
referred to as the “Union”). Pilchman seeks an order “reversing” the NLRB’s refusal to institute
an unfair labor practice complaint against BPL and the Union. He alternatively seeks an order
“reversing” PERB’s dismissal of his application for injunctive relief and unfair labor practice
charges. Currently pending are motions to dismiss filed by NLRB, PERB, BPL, and the Union.
(Docs. 60, 61, 66, and 67.) For the reasons explained below, the motions are granted and the
case is dismissed for lack of subject matter jurisdiction.

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 2 of 8 PagelD #: 1102

I.

BACKGROUND1
Pitchman was an employee of BPL and a working member of the Union from

approximately June 1998 until his termination in April 2013. (Compl., Doc. 1,

1, 19.) In July

2012, the BPL issued Pilchman a “disciplinary memo” and, subsequently, a Statement of
Charges, for activity related to a union election that took place in the fall of 2011. (Id., ^ 2-3.)
Pilchman unsuccessfully disputed the allegations which, after a series of conversations,
grievances, and appeals, resulted in a ten-day suspension without pay running from November to
December of 2012. (Id., 4-11.) Shortly after Pilchman returned to work from his suspension,
BPL issued a new Statement of Charges recommending Pilchman’s termination. (Id, ^ 12.) The
recommendation was made due to allegedly “scurrilous and inflammatory” accusations against
the Mayor, the Governor, the Speaker of the City Council, the Brooklyn Borough President, and
the Chief Judge of the New York State Courts that Pilchman asserted in the course of his
disciplinary actions. (Id.) During a period of suspension with pay and a paid medical leave,
Pilchman unsuccessfully grieved the second Statement of Charges, which eventually resulted in
his termination on April 26, 2013. (Id.,

13-19.)

Both during and after the above-described proceedings, Pilchman filed four unfair labor
practice charges with the NLRB against BPL, and one against the Union, alleging violations of
the National Labor Relations Act (the “Act”), 29 U.S.C. § 158(a). (Id.

20-21; see also Doc.

67-1, 2). All of the unfair labor practice charges were dismissed by NLRB’s General Counsel
due to the Board’s lack ofjurisdiction over BPL. (See NLRB Memo., Doc. 67-1 at 2.)
Specifically, the charges were dismissed because NLRB’s General Counsel determined that BPL

1 The following facts are undisputed and provided only as background to clarify the legal issue presented
herein.
2

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 3 of 8 PagelD #: 1103

was a “political subdivision of the City of New York,” under Section 2(2) of the Act, and
therefore not an “employer” covered by the Act.2 {See Compl., Ex. 1,1.)
Pilchman also filed unfair labor practice claims against BPL and the Union with PERB,
alleging violations of Section 704 of the State Employment Relations Act (“SERA”), and Section
209-a.2(c) of the Public Employees’ Fair Employment Act (codified at Article 14 of the New
York Civil Service Law), commonly known as the “Taylor Law.” {See PERB Memo., Doc. 661, 2.) Additionally, Pilchman filed an application for injunctive relief under the Taylor Law
§ 209-a.4(b). {Id.) PERB dismissed all of Pilchman’s Taylor Law claims, and denied his request
for injunctive relief. {Id., 3.) The Administrative Law Judge who dismissed the claims reasoned
that PERB lacked jurisdiction over BPL with respect to these claims because BPL “is not a
public employer under the Taylor Law.” (Murphy Affirmation, Doc. 60-2, Ex. A at p. 6) (citing
Rodriguez v. Brooklyn Public Library, 34 Misc. 3d 310 (Sup. Ct. Kings County 2011)).
Pilchman’s SERA claims against BPL, on the other hand, were not dismissed. {Id.)
Pilchman filed the instant Complaint on December 4,2014, after his charges were
dismissed, primarily alleging that NLRB erred by declining to issue unfair labor practice
complaints against BPL. He appears to be motivated by the belief that the reasoning of the state
and federal agencies are somehow inconsistent. Pilchman requests that the Court “reverse the
NLRB dismissals (and remand to the NLRB for appropriate continued processing).” (Compl., p.
21.) In the alternative, “[i]f the Court does not reverse the NLRB dismissals,” Pilchman requests

2 Section 2(2) of the Act states: “[t]he term ‘employer’ includes any person acting as an agent of an
employer, directly or indirectly, but shall not include the United States or any wholly owned Government
corporation, or any Federal Reserve Bank, or any State or political subdivision thereof...29 U.S.C. §
152(2). (Emphasis added).
3

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 4 of 8 PagelD #: 1104

“reversal” of PERB’s dismissals of his Taylor Law claims. (Id) His complaint does not directly
assert any claims against, or request relief with respect to, either BPL or the Union.3
Following pre-motion conference letters from all the defendants requesting permission to
file motions to dismiss, the Court bifurcated briefing and ordered the first-stage motions to
#

address only the issue of subject matter jurisdiction. (Doc. 43.) Each defendant then moved to
dismiss for lack of subject matter jurisdiction pursuant to Federal Rule of Civil Procedure
(“FRCP”) 12(b)(1). Primarily, the defendants each argue that neither statute nor case law
provides for judicial review of the NLRB General Counsel’s prosecutorial decisions not to issue
unfair labor practice complaints. PERB additionally asserts Eleventh Amendment immunity
from suit. Pilchman argues that the Administrative Procedure Act, 5 U.S.C. § 701 et seq, permits
judicial review of NLRB’s refusal to institute proceedings, a contention he primarily rests on the
Ninth Circuit case Montana Air Chapter No. 29, Ass'n of Civilian Technicians, Inc. v. Federal
Labor Relations Authority, 898 F.2d 753, 755 (9th Cir. 1990). With respect to the PERB claims,
and presumably all other defendants, he invokes supplemental jurisdiction under 28 U.S.C. §
1367.
II.

DISCUSSION
A.

Standard of Review

A claim is “properly dismissed for lack of subject-matter jurisdiction under Rule 12(b)(1)
when the district court lacks the statutory or constitutional power to adjudicate it.” Makarova v.

3 Pilchman has filed two additional actions. In 15-cv-3176 (“Pilchman II”), Pilchman sues the same
defendants, in addition to the New York State Division of Human Rights (“NYDHR”), alleging
essentially the same claims with respect to two additional complaints Pilchman filed with the NLRB
subsequent to the filing of the instant action. Pilchman II also asserts Freedom of Information Act and
New York Freedom of Information Law claims, and requests mandamus relief with respect to NYDHR.
In 15-cv-3641 (“Pilchman III”), Pilchman asserts First Amendment retaliation claims against BPL.
Pilchman II and Pilchman III have both been stayed pending a decision on the instant motions.
4

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 5 of 8 PagelD #: 1105

United States, 201 F.3d 110, 113 (2d Cir. 2000). “A plaintiff asserting subject matter jurisdiction
has the burden of proving by a preponderance of the evidence that it exists.” Id. (citing Malik v.
Meissner, 82 F.3d 560, 562 (2d Cir. 1996)). When “the case is at the pleading stage and no
evidentiary hearings have been held ... [a court] must accept as true all material facts alleged in
the complaint and draw all reasonable inferences in the plaintiffs favor.” Conyers v. Rossides,
558 F.3d 137, 143 (2d Cir. 2009) (internal citations and quotations omitted). However, “in
adjudicating a motion to dismiss for lack of subject-matter jurisdiction, a district court may
resolve disputed factual issues by reference to evidence outside the pleadings, including
affidavits.” State Employees Bargaining Agent Coalition, v. Rowland, 494 F.3d 71, 77, n. 4 (2d
Cir. 2007).
B.

Jurisdictional Analysis

Pilchman invokes jurisdiction for judicial review of the General Counsel’s decision not to
issue a complaint under the Administrative Procedure Act, 5 U.S.C. § 701 et seq. (the “APA”).
That statute generally provides an avenue for judicial review of final agency actions “for which
there is no other adequate remedy in a court.” 5 U.S.C. § 704. While there is a strong
presumption of reviewability under the APA, see Abbott Labs. v. Gardner, 387 U.S. 136, 140
(1967), section 701 explicitly excludes judicial review “to the extent that—(1) [other] statutes
preclude judicial review; or (2) agency action is committed to agency discretion by law,” 5
U.S.C. § 701(a), These are two distinct jurisdictional exclusions, and judicial review cannot be
had if either subsection applies. See Riverkeeper, Inc. v. Collins, 359 F.3d 156, 164 (2d Cir.
2004) (citing Heckler v. Chaney, 470 U.S. 821 (1985)).
Here, jurisdiction to review the General Counsel’s decision not to file an unfair labor
practice complaint is squarely excluded under subsection 701(a)(1). The Supreme Court has

5

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 6 of 8 PagelD #: 1106

explicitly held that the National Labor Relations Act (“NLRA”) is a statute precluding the review
Pilchman seeks here. See N.L.R.B. v. United Food & Commercial Workers Union, Local 23,
AFL-CIO, 484 U.S. 112, 131 (1987). In United Food, the Court “determined that Congress
purposely excluded prosecutorial decisions from [judicial] review.” Id. More specifically, the
Court has explained that “[t]he NLRA leaves no doubt that it is meant to be, and is, a
comprehensive statute concerning the disposition and review of the merits of unfair labor
practice charges” and limits judicial review to orders issued by the board that issue well after the
General Counsel has exercised prosecutorial discretion. Id. In short, as numerous courts have
recognized, the General Counsel’s prosecutorial decisions are categorically excluded from
judicial review. See, e.g., Detroit Edison Co. v. N.L.R.B., 440 U.S. 301, 316 (1979) (explaining
that the Board's General Counsel could “in his unreviewable discretion refuse to issue [an unfair
labor practice] complaint.”); N.L.R.B. v. Sears, Roebuck & Co., 421 U.S. 132, 139 (1975)
(“Congress has delegated to the Office of General Counsel on ‘behalf of the Board’ the
unreviewable authority to determine whether a complaint shall be filed.”) (quoting 29 U.S.C. §
153(d)); Fitz v. Commons Workers ofAm., No. CIV A 88-1214 (RCL), 1989 WL 226082, at *8
(D.D.C. Aug. 17, 1989) (In [United Food] the Court found that [701(a)(1)] applied to acts of the
General Counsel, that is, that review is precluded by statute.”) affd, 917 F.2d 62 (D.C. Cir.
1990).
Pilchman’s argument to the contrary is without merit. He contends that the General
Counsel’s decisions not to prosecute are reviewable if based on a belief that the NLRB itself
lacks jurisdiction. He rests this argument on Montana Air Chapter No. 29, Ass'n of Civilian
Technicians, Inc. v. Federal Labor Relations Authority, in which the Ninth Circuit considered
subsection 701(a)(2)’s prohibition on judicial review of decisions “committed to agency

6

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 7 of 8 PagelD #: 1107

discretion by law.” 898 F.2d 753, 755-56 (9th Cir. 1990). There, the Ninth Circuit held that a
district court had jurisdiction over the Federal Labor Relations Authority’s (“FLRA”) decision
not to issue an unfair labor practice complaint because the FLRA had erroneously concluded that
it lacked jurisdiction. 898 F.2d at 755-63. That decision, however, is irrelevant here. It
addressed neither the National Labor Relations Act nor section 701(a)(1) of the APA. Rather,
the Montana Air court invoked a footnote in Heckler v. Chaney, 470 U.S. 821 (1985), that left
open the possibility that agency discretion presumptively unreviewable under 701(a)(2) may
nevertheless be subject to APA review if an agency’s decision concerned its own jurisdiction.
Id. Neither Montana Air nor Heckler addressed subsection 701(a)(1), which, under Food Union,
squarely applies here. Accordingly, Plaintiff has not and cannot meet his burden to establish
subject matter jurisdiction over the NLRB General Counsel’s decisions and his claims against
the NLRB must be dismissed.
For similar reasons Pilchman’s claims against the remaining Defendants must also be
dismissed. He invokes supplemental jurisdiction under 28 U.S.C. § 1367 over all Defendants
other than the NLRB. (Pilchman Memo., Doc. 67-18 at 21-22). Such is unavailable here,
however, because the Court “cannot exercise supplemental jurisdiction unless there is first a
proper basis for original federal jurisdiction.” Nowak v. Ironworkers Local 6 Pension Fund, 81
F.3d 1182, 1187 (2d Cir. 1996); see also In re Joint Eastern and Southern Dist. Asbestos Litig.,
14 F.3d 726, 730 n. 2 (2d Cir.1993) (“[T]he court may not exercise supplemental jurisdiction
over claims unless the court has ‘original jurisdiction’ over at least one of the plaintiffs claims.”)
C.

Motion to Amend the Complaint

In his opposition, Pilchman requests leave to amend the Complaint “[i[f there is any fatal
deficiency.” After a motion to dismiss has been made, a party may amend its pleading by leave

7

Case l:14-cv-07083-WFK-LB Document 72 Filed 05/03/17 Page 8 of 8 PagelD #: 1108

of court or by written consent of the adverse party. Fed. R. Civ. P. 15(a)(2). While a pro se
complaint generally should not be dismissed “without granting leave to amend at least once
when a liberal reading of the complaint gives any indication that a valid claim might be stated[,]”
leave need not be granted where it would be futile. Cuoco v. Moritsugu, 222 F.3d 99,112 (2d
Cir. 2000). Here, there no “fatal deficiency” that could be cured by a more artfully pled
complaint and any amendment would be futile. See Donnelly v. United States, 55 (2d Cir. 2014)
(Summary Order) (affirming denial of leave to amend “as an amendment to the complaint would
not have cured [the] jurisdictional bar.”); DeBoe v. Du Bois, 503 F. App'x 85, 89 (2d Cir. 2012)
(Summary Order) (affirming denial of leave to amend where district court correctly determined it
lacked subject matter jurisdiction over the claims). Therefore, leave to amend is denied.
D.

CONCLUSION

For the reasons stated above, defendants’ motions to dismiss (Docs. 60, 61, 66, and 67)
are GRANTED, Pilchman’s Complaint is dismissed in its entirety, and leave to amend is
DENIED. The Clerk of Court is respectfully directed to enter judgment and close the case.
SO ORDERED

Qfbandra ^ Tjcmtes

Is/

'' SANDRA L. TOWNE&
United States District Judge

Dated:

5, ^2.0 /
BrooklynO'Jew York

8

Case l:15-cv-03176-WFK-LB Document 53 Filed 12/17/19 Page 1 of 3 PagelD #: 1716
IN CLERKS OFFICE
US DISTRICT COURT E.D.N.Y

#

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

*

DEC 1 7 2019 *

BB0OKLYN OFFICE
NOT FOR PUBLICATION

ROBERT PILCHMAN,
Plaintiff,-

DECISION & ORDER
15-CV-3176 (WFK) (LB)

v.

NATIONAL LABOR RELATIONS BOARD
et aly

Defendants.
X

WILLIAM F. KUNTZ, II, United States District Judge:
Before the Court are Defendants’ motions to dismiss Plaintiffs complaint, filed pro se.
See ECF Nos. 47,49, 50, and 52. To survive a motion to dismiss, a complaint must set forth a
“short and plain statement of the claim showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). “[A] complaint must contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)J
(quoting Bell Ail. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A claim is plausible “when the
plaintiff pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. The pleading standard of Rule 8 does not
i

require “detailed factual allegations,” but demands “more than labels and conclusions” and “a
formulaic recitation of the elements of a cause of action.” Twombly, 550 U.S. at 555.
A defendant may move to dismiss a complaint pursuant to Rule 12(b)(6) for failure to
state a claim upon which relief can be granted before filing a responsive pleading. Fed. R. Civ.
P. 12(b)(6). “In ruling on a motion pursuant to Fed. R. Civ. P. 12(b)(6), the duty of a court ‘is
merely to assess the legal feasibility of the complaint, not to assay the weight of the evidence
which might be offered in support thereof.”’ DiFolco v. MSNBC Cable L.L.C., 622 F.3dd04,

1

Case l:15-cv-03176-WFK-LB Document 53 Filed 12/17/19 Page 2 of 3 PagelD #: 1717

113 (2d Cir. 2010) (quoting Cooper v. Parsky, 140 F.3d 433,440 (2d Cir. 1998)). The court
“accept[s] all factual allegations in the complaint as true and draw[s] all reasonable inferences in
[the] plaintiff’s favor.” In re Thelen LLP, 736 F.3d 213,218 (2d Cir. 2013). Nonetheless, courts
‘“are not bound to accept as true a legal conclusion couched as a factual allegation.’” Twombly,
550 U.S. at 555 (quoting Papasan v. Allain, 478 U.S. 265,286 (1986)).
i
On a motion to dismiss, a pro se plaintiffs complaint “must be construed liberally with

‘special solicitude’ and interpreted to raise the strongest claims that it suggests.” Hogan v.
Fischer, 738 F.3d 509, 515 (2d Cir. 2013) (quoting Hill v. Curcione, 657 F.3d 116,122 (2d Cir.
2011)). A pro se plaintiff is nevertheless required to satisfy the same pleading requirements. A
pro se plaintiffs “[b]ald assertions and conclusions of law are not adequate to withstand a motion
to dismiss.” Ruotolo v. Fannie Mae, 933 F. Supp. 2d 512,524-25 (S.D.N.Y. 2013) (Karas, J.)
(quoting Wilson v. Dalene, 699 F. Supp. 2d 534,554 (E.D.N.Y. 2010) (Bianco, J.)). That being
said, a court “cannot invent factual allegations that [the pro se plaintiff] has not pled.” Chavis v.
Chappius, 618 F.3d 162, 170 (2d Cir. 2010).

I

Upon careful review of the record, construing all factual allegations in a light most
favorable to Plaintiff, and construing Plaintiffs claims liberally with special solicitude so as to
make the strongest arguments they suggest, the Court finds the Complaint fails to state a claim
upon which relief can be granted. See Harris v. Mills, 572 F.3d 66,72 (2d Cir. 2009); Iqbal, 556
U.S. at 678 (“[A] complaint must contain sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” (quoting Twombly, 550 U.S. at 570))).

2

Case l:15-cv-03176-WFK-LB Document 53 Filed 12/17/19 Page 3 of 3 PagelD #: 1718

Accordingly, Defendants’ motions to dismiss are GRANTED in its entirety. The Clerk
of Court is respectfully directed to terminate the pending motions at ECF No. 47,49, 50, and 52
and close the case.
SO ORDERED.

s/WFK

^^ONfWlLnAM^rlcuNfefll

!

United States District Judge
!

Dated: December 13, 2019
Brooklyn, New York

!

1

3

Case l:15-cv-03641-WFK-LB Document 18 Filed 12/17/19 Page 1 of 3 PagelD #: 934

PULED

IN CLERK'S OFFICE
US DISTRICT COURT E.D.N.Y.

UNITED STATES DISTRICT COUR#
EASTERN DISTRICT OF NEW YORK
ROBERT PILCHMAN,

DEC 1 7 2019

★

brooklyN^office

NOT FOR PUBLICATION

Plaintiff,
DECISION & ORDER
15-CV-3641 (WFK) (LB)

v.
BROOKLYN PUBLIC LIBRARY,
Defendants.

I

•X

WILLIAM F. KUNTZ, II, United States District Judge:
Before the Court is Defendant’s motion to dismiss Plaintiffs complaint, filed pro se. See
ECF No. 17. To survive a motion to dismiss, a complaint must set forth a “short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
“[A] complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,678 (2009) (quoting Bell Atl.
[

Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A claim is plausible “when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. The pleading standard of Rule 8 does not require “detailed
factual allegations,” but demands “more than labels and conclusions” and “a formulaic recitation
of the elements of a cause of action.” Twombly, 550 U.S. at 555.
A defendant may move to dismiss a complaint pursuant to Rule 12(b)(6) for failure to
state a claim upon which relief can be granted before filing a responsive pleading. Fed. R. Civ.
P. 12(b)(6). “In ruling on.a motion pursuant to Fed. R. Civ. P. 12(b)(6), the duty of a court ‘is
merely to assess the legal feasibility of the complaint, not to assay the weight of the evidence
which might be offered in support thereof.’” DiFolco v. MSNBC Cable L.L.C., 622 F.3d 104,
113 (2d Cir. 2010) (quoting Cooper v. Parsky, 140 F.3d 433,440 (2d Cir. 1998)). The court
1

Case l:15-cv-03641-WFK-LB Document 18 Filed 12/17/19 Page 2 of 3 PagelD #: 935

“accepts] all factual allegations in the complaint as true and draw[s] all reasonable inferences in
[the] plaintiffs favor.” In re Thelen LLP, 736 F.3d 213,218 (2d Cir. 2013). Nonetheless, courts
‘“are not bound to accept as true a legal conclusion couched as a factual allegation.’” Twombly,
550 U.S. at 555 (quoting Papasan v. Allain, 478 U.S. 265,286 (1986)).
On a motion to dismiss, a pro se plaintiffs complaint “must be construed liberally with
‘special solicitude’ and interpreted to raise the strongest claims that it suggests.” Hogan v.
*

Fischer, 738 F.3d 509, 515 (2d Cir. 2013) (quoting Hill v. Curcione, 657 F.3d 116,122 (2d Cir.
2011)). A pro se plaintiff is nevertheless required to satisfy the same pleading requirements. A
pro se plaintiffs “[b]ald assertions and conclusions of law are not adequate to withstand a motion
to dismiss.” Ruoiolo v. Fannie Mae, 933 F. Supp. 2d 512, 524-25 (S.D.N.Y. 2013) (Karas! J.)
(quoting Wilson v. Dalene, 699 F. Supp. 2d 534,554 (E.D.N.Y. 2010) (Bianco, J.)). That being
said, a court “cannot invent factual allegations that [the pro se plaintiff] has not pled.” Chavis v.
Chappius, 618 F.3d 162,170 (2d Cir. 2010).
Upon careful review of the record, construing all factual allegations in a light most
favorable to Plaintiff, and construing Plaintiffs claims liberally with special solicitude so as to
make the strongest arguments they suggest, the Court finds the Complaint fails to state a claim
upon which relief can be granted. See Harris v. Mills, 572 F.3d 66,72 (2d Cir. 2009); Iqbal, 556
U.S. at 678 (“[A] complaint must contain sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” (quoting Twombly, 550 U.S. at 570))).

2

Case l:15-cv-03641-WFK-LB Document 18 Filed 12/17/19 Page 3 of 3 PagelD #: 936

Accordingly* Defendant’s motion to dismiss is GRANTED in its entirety. The Cleric of
Court is respectfully directed to terminate the pending motions at ECF No. 17 and close the case.
SO ORDERED,

s/WFK
JfdN^fLLlSlF. KUjrfZ,
United States District Judge
Dated: December 13, 2019
Brooklyn, New York
1
;
*i

v

i

*

*
■

+

f

i

3

i

Case l:14-cv-07083-WFK-LB Document 73 Filed 05/04/17 Page 1 of 1 PagelD #; 1109

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X

ROBERT PILCHMAN,

JUDGMENT
14-CV- 7083 (SLT)
Plaintiff,

-againstNATIONAL LABOR RELATIONS BOARD,
et al.,
Defendants.
X

A Memorandum and Order of Honorable Sandra L. Townes, United States
District Judge, having been filed on May 3, 2017, granting Defendants’ motions to dismiss;
dismissing Plaintiffs Complaint in its entirety; denying leave to amend; and directing the Clerk
#

of Court to enter judgment and close the case; it is
ORDERED and ADJUDGED that Defendants’ motions to dismiss are granted;
that Plaintiffs Complaint is dismissed in its entirety; that leave to amend is denied; and that the

%

case is closed.
Dated: Brooklyn, New York
May 04, 2017

Douglas C. Palmer
Clerk of Court
by:

*

#

/s/ Janet Hamilton
Deputy Clerk

Case l:15-cv-03176-WFK-LB Document 54 Filed 12/18/19 Page 1 of 1 PagelD #: 1719

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X
ROBERT PILCHMAN,
Plaintiff,

JUDGMENT
15-CV-3176 (WFK) (LB)

v.
NATIONAL LABOR RELATIONS BOARD et al,
Defendants.
X
A Decision and Order of Honorable William F. Kuntz II, United States District Judge,
having been filed on December 17, 2019, granting Defendants’ motion to dismiss in its entirety;
it is
ORDERED and ADJUDGED that Defendants' motion to dismiss is granted in its
entirety.
#

Dated: Brooklyn, NY
December 18, 2019

Douglas C. Palmer
Clerk of Court
By:

IslJalitza Poveda
Deputy Clerk

Case l:15-cv-03641-WFK-LB Document 19 Filed 12/18/19 Page 1 of 1 PagelD #: 937

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X
ROBERT PILCHMAN,
Plaintiff,

JUDGMENT
15-CV-3641 (WFK) (LB)

v.
BROOKLYN PUBLIC LIBRARY,
Defendant.
X
A Decision and Order of Honorable William F. Kuntz II, United States District Judge,
having been filed on December 17, 2019, granting Defendant’s motion to dismiss in its entirety;
it is
ORDERED and ADJUDGED that Defendant’s motion to dismiss is granted in its
entirety.
*

Dated: Brooklyn, NY
December 18, 2019

Douglas C. Palmer
Clerk of Court
By:

IslJalitza Poveda
Deputy Clerk

